No. 19-816
In the

Supreme Court of the United States
__________________

KRISTINA BOX, ET AL.,
Petitioners,
v.
PLANNED PARENTHOOD OF INDIANA
AND KENTUCKY, INC.,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

__________________

BRIEF OF AMICI CURIAE PRIESTS FOR LIFE
AND RACHEL’S VINEYARD
SUPPORTING PETITIONERS
__________________
DAVID YERUSHALMI
American Freedom Law Center
2020 Pennsylvania Avenue NW
Suite 189
Washington, D.C. 20006
(646) 262-0500

ROBERT JOSEPH MUISE
Counsel of Record
American Freedom Law Center
P.O. Box 131098
Ann Arbor, Michigan 48113
(734) 635-3756
rmuise@americanfreedomlawcenter.org

Counsel for Amici Curiae

January 27, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF IDENTITY AND INTERESTS
OF AMICI CURIAE PRIESTS FOR LIFE AND
RACHEL’S VINEYARD . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 4
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

Indiana Has a Compelling Interest to
Regulate Abortion in Order to Minimize Its
Harmful Effects on Minors . . . . . . . . . . . . . . . 5

II.

The Testimonies of Abortion Victims
Demonstrate that More Regulations of
Abortion Are Needed, not Less . . . . . . . . . . . . 8

III.

The Court Needs to Grant Review to Provide
Guidance to the Lower Courts When
Deciding Cases in the Abortion Context . . . . 9

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
APPENDIX
Silent No More Testimonies . . . . . . . . . . . . . . . App. 1

ii
TABLE OF AUTHORITIES
CASES
Bellotti v. Baird,
443 U.S. 640 (1979). . . . . . . . . . . . . . . . . . . . . . . . 6
Planned Parenthood of Se. Pa. v. Casey,
505 U.S. 833 (1992). . . . . . . . . . . . . . . . . . . . 6, 7, 8
Roe v. Wade,
410 U.S. 113 (1973). . . . . . . . . . . . . . . . . . . . . . . . 9
Timbs v. Ind.,
139 S.Ct. 682 (2019) . . . . . . . . . . . . . . . . . . . . . . 10
STATUTE
Ind. Code § 16–34–2–4(e). . . . . . . . . . . . . . . . . . . . . . 5

1
STATEMENT OF IDENTITY AND INTERESTS
OF AMICI CURIAE PRIESTS FOR LIFE AND
RACHEL’S VINEYARD
Pursuant to Supreme Court Rule 37, Amici Curiae
Priests for Life and Rachel’s Vineyard respectfully
submit this brief in support of the petitioners, urging
the Court to grant review and uphold the paramount
right of Indiana to regulate the abortion industry in
order to protect the health, welfare, and safety of its
citizens, specifically including minors who seek courtauthorized abortions.1
Priests for Life is a pro-life organization created to
identify, educate, network, encourage, and mobilize
Catholic and other Christian clergy and lay people to
advance the protection of unborn children from
abortion through prayer, education, preaching,
teaching, publishing, and other religious
methodologies.
To promote its mission, Priests for Life, along with
Anglicans for Life, have developed the Silent No More
Awareness Campaign (“Silent No More”).
Silent No More is a joint project whereby Christians
make the public aware of the devastation abortion
1

All parties received timely notice and have consented to the filing
of this brief. Amici Priests for Life and Rachel’s Vineyard further
state that no counsel for any party authored this brief in whole or
in part, and no counsel or party made a monetary contribution
intended to fund the preparation or submission of this brief. No
person other than Amici, their members, or their counsel made a
monetary contribution to the preparation or submission of this
brief.

2
brings to women and men. The campaign seeks to
expose and heal the secrecy and silence surrounding
the emotional and physical pain of abortion.
The specific goals of Silent No More are as follows:
• To reach out to people hurt after abortion,
encouraging them to attend abortion after-care
programs.
• To invite those who are ready to break the
silence by speaking the truth about abortion’s
negative consequences and the path to healing.
• To educate the public that abortion is harmful
emotionally, physically, and spiritually to
women, men, and families, so that it becomes
unacceptable for anyone to recommend abortion
as a “fix” for a problem pregnancy.
• To share the personal testimonies of hurt and
healing to help others avoid the injury and pain
caused by abortion.
Because of its focus and experience in helping foster
healing after abortion, and helping the clergy play their
key role in that process, Priests for Life has as an
integral part of its work the world’s largest ministry for
healing after abortion. Called Rachel’s Vineyard, this
ministry works across the United States and in 77
countries by providing a healing retreat model based on
psychological research on abortion as trauma, and on
the spiritual resources of the Christian Churches.

3
Rachel’s Vineyard:
• Welcomes small groups of mothers, fathers, and
other relatives of aborted children to attend
these retreats, in the company of trained
professionals, to process their abortion
experience and begin the work of grieving the
child they lost.
• Conducts after-care, assisting the grieving
parent and relative for as long as they wish to
avail themselves of this help.
• Trains clergy and professional counselors about
the traumatic impact of abortion and how to
help people find healing.
• Makes available the published results of the
research of its founder, Dr. Theresa Burke, and
other researchers on abortion trauma.
Having served over 326,000 individuals, couples and
families in need of this healing, the Rachel’s Vineyard
teams have profound insight into the needs of those
who go to abortion clinics, the experiences they have
there, and the long-term impact that abortion has on
their lives.
Through this Brandeis-style brief, Amici Curiae
Priests for Life and Rachel’s Vineyard present to this
Court the compelling testimonies of individuals who
have been harmed by the adverse effects of abortion.
These are the testimonies of abortion victims who still
have a voice to express the harm and trauma caused by
this deadly procedure.

4
SUMMARY OF THE ARGUMENT
Indiana has a paramount right, and a compelling
interest, to protect the health, safety, and welfare of its
citizens, and this includes enacting regulations to
protect the long-term welfare of minors who seek courtauthorized abortions. Indiana’s parental-notice law
serves that valid purpose, and it does not place a
substantial obstacle in the path of a woman seeking an
abortion.
The Court should grant review to affirm the right of
states to enact such laws and to provide much needed
guidance to the lower courts when deciding such cases
in the abortion context.
In further support of Indiana’s right to enact its
parental-notice law, included in the appendix to this
brief are testimonies of victims of abortion from states
across the country, including Indiana—persons who
have been harmed in a profound and lasting way by
this deadly procedure. These testimonies reveal that
regulations like those enacted by Indiana are valid and
necessary.

5
ARGUMENT
I.

Indiana Has a Compelling Interest to
Regulate Abortion in Order to Minimize its
Harmful Effects on Minors.

In 2017, Indiana enacted a new requirement to its
existing parental-notice law, providing that even where
a juvenile court permits the abortion to go forward
without parental consent, parents must still be given
notice of the abortion unless the judge also finds such
notice is not in the minor’s best interests. Ind. Code
§ 16–34–2–4(e). The statute does not provide an
exemption to the notice requirement when the court
only finds that the minor is mature enough to make her
own abortion decision. Consequently, absent a “bests
interests” showing, the statute requires that the
minor’s attorney “shall serve the notice required by this
subsection by certified mail or by personal service” and
shall do so “before” the abortion. Id.
Indiana has a valid purpose for enacting this
parental notice provision. As set forth in the petition:
Notice will, for example, provide parents with
critical aspects of their daughter’s medical
history, give them context for any post-abortion
mental or emotional distress their daughter may
incur, and put them on notice that perhaps their
daughter needs more guidance in her sexual
behavior.
Pet. at 5. In his dissent, Seventh Circuit Judge Kanne
acknowledged that parental notice statutes further
Indiana’s “‘important’ and ‘reasonable’ interests in
requiring parental consultation before a minor makes

6
an irrevocable and profoundly consequential decision.”
Pet., App. 41a-42a (quoting Bellotti v. Baird, 443 U.S.
640-41 (1979)).
These are all valid concerns that are directly served
by the challenged notice requirement.
Petitioners urge this Court to apply Bellotti v.
Baird, 443 U.S. 622 (1979), when deciding this case, see
Pet. at 2, 11-15, and their reasons are legitimate.
Nonetheless, the parental-notice provision is
permissible even under the standard set forth in
Planned Parenthood of Southeastern Pennsylvania v.
Casey, 505 U.S. 833 (1992).
In Casey, this Court adopted the “undue burden”
standard to balance the competing interests at stake in
the abortion context. Under that standard, a law
violates the Constitution “if its purpose or effect is to
place a substantial obstacle in the path of a woman
seeking an abortion before the fetus attains viability.”
Casey, 505 U.S. at 878. However, as the Court
observed, “not all regulations must be deemed
unwarranted.” Id. at 876. “The fact that a law which
serves a valid purpose, one not designed to strike at the
right itself, has the incidental effect of making it more
difficult or more expensive to procure an abortion
cannot be enough to invalidate it.” Id. at 874.
Indiana’s parental-notice law serves a valid purpose
and it does not “strike at the right itself.” Thus, it is
valid even if its incidental effect makes it more difficult
for a minor to procure an abortion. And because this is
a pre-enforcement challenge to the law, any incidental
effect this law may have on a minor’s ability to procure

7
an abortion is purely speculative, calling into question
the propriety of this challenge in the first instance. See
Pet. at 7-8, 9, 15-22.
Unquestionably, a state has a valid, indeed
compelling, interest to promote the public health,
safety, and welfare of its citizens, and this includes
protecting those, particularly minors, who may be
harmed by abortion—a procedure that by its very
nature is intended to destroy human life. And, as this
Court further acknowledged, states also have a
“legitimate goal of protecting the life of the unborn.”
Casey, 505 U.S. at 883.
As the record demonstrates, the valid purpose of the
challenged notice requirement is to protect the health
and welfare of minors who seek court-authorized
abortions. The notice requirement assists parents in
their role as the primary caretakers of their minor
children. The long-term negative effects of abortion, as
the testimonies submitted with this brief demonstrate,
are real. Once those in the abortion industry have
completed the court-authorized abortion, they are done
with the minor, leaving the parents to deal with the
long-term effects of their daughter’s fateful decision.
The notice requirement gives parents the ability to
provide the necessary help for their daughter—help, for
example, that is provided by organizations such as
Rachel’s Vineyard. Without knowing the nature and
cause of the harm that their daughter is
suffering—and, as the testimonies in this brief make
clear, there is a very strong likelihood that she will
suffer trauma as a result of her abortion decision—the
parents will not know how to approach the healing

8
process. In sum, the effect of this law advances a
legitimate purpose.
Consequently, as this Court held in Casey, even if
the challenged notice requirement makes it more
difficult to procure an abortion, that is no basis to
invalidate it. Casey, 505 U.S. at 874. The Seventh
Circuit was incorrect when it affirmed a preenforcement challenge to this law.
II.

The Testimonies of Abortion Victims
Demonstrate that More Regulations of
Abortion Are Needed, not Less.

Proponents of abortion, specifically including those
who profit from it, such as Respondent, often claim that
they want abortion to be “safe, legal, and rare.” Yet, as
this case demonstrates, their paramount concern is to
keep abortion “legal,” often rejecting any effort by the
states to ensure that abortion is truly “safe”—of course,
it is never “safe” for the unborn child whose life is
ended by the abortion—and further arguing that any
regulation that might have the incidental effect of
making abortion “rare” is automatically declared a
“substantial obstacle.”
Casey does not prevent states from adopting
regulations such as Indiana’s notice requirement; it
expressly permits them to do so. In sum, it was
incorrect for the lower courts to enjoin the enforcement
of Indiana’s parental-notice law.
Consistent with Casey and in further support of a
state’s paramount right to regulate abortion to protect
the safety, health, and welfare of its citizens—including
Indiana’s right to enact parental-notice laws designed

9
to protect minors—included in the appendix to this
brief is a sampling of the numerous testimonies of
victims of abortion from Indiana and other states
across the country—persons who have been harmed in
a profound way by this deadly procedure. Amici
believe it is imperative that this Court hear their voices
because these testimonies demonstrate that what is
needed is more regulations like those enacted by
Indiana, not less. Striking down Indiana’s law makes
it harder to protect women such as these. Make no
mistake, abortion is not only fatal to the unborn, it is
exceedingly harmful to women, as these testimonies
vividly illustrate. And this harm will only be greater
when the abortion victim is a minor.
III.

The Court Needs to Grant Review to
Provide Guidance to the Lower Courts
When Deciding Cases in the Abortion
Context.

It should come as no surprise that when this Court
created a “right” to abortion out of whole cloth and
without any serious or legitimate constitutional
foundation, as it did when it decided Roe v. Wade in
1973, that the application of the law to this new-found
“right” will confound the lower courts.2

2

Indeed, whether a judicial nominee believes that Roe v. Wade was
correctly decided has, unfortunately, become a litmus test for one
major political party as to whether the person is qualified to sit on
the federal bench in the first instance. This alone has had a
corrupting effect on the judiciary at large.

10
As Justice Thomas recently noted:
Because the oxymoronic “substantive” “due
process” doctrine has no basis in the
Constitution, it is unsurprising that the Court
has been unable to adhere to any “guiding
principle to distinguish ‘fundamental’ rights that
warrant protection from nonfundamental rights
that do not.” McDonald, supra, at 811 (opinion
of Thomas, J.). And because the Court’s
substantive due process precedents allow the
Court to fashion fundamental rights without any
textual constraints, it is equally unsurprising
that among these precedents are some of the
Court’s most notoriously incorrect decisions.
E.g., Roe v. Wade, 410 U. S. 113; Dred Scott v.
Sandford, 60 U.S. 393 (1857).
Timbs v. Ind., 139 S.Ct. 682, 692 (2019) (Thomas, J.,
concurring) (emphasis added).
The Court’s ongoing struggle with applying this
illegitimate decision has frustrated not only state
lawmakers who seek to traverse this rocky and
uncertain legal landscape, but it has also confounded
and frustrated the lower courts, as evidenced here by
Judge Easterbrook’s concurrence in the Seventh
Circuit’s 6-5 denial of rehearing en banc. Per Judge
Easterbrook:
[A] grant of rehearing en banc in this case would
be unproductive.
And whether or not it
happens, a grant of rehearing en banc would
delay the ultimate resolution of this dispute.
For a court of appeals cannot decide whether

11
requiring a mature minor to notify her parents
of an impending abortion, when she cannot
persuade a court that avoiding notification is in
her best interests, is an “undue burden” on
abortion.
The “undue burden” approach
announced in Planned Parenthood of
Southeastern Pennsylvania v. Casey, 505 U.S.
833 (1992), does not call on a court of appeals to
interpret a text. Nor does it produce a result
through interpretation of the Supreme Court’s
opinions. How much burden is “undue” is a
matter of judgment, which depends on what the
burden would be (something the injunction
prevents us from knowing) and whether that
burden is excessive (a matter of weighing costs
against benefits, which one judge is apt to do
differently from another, and which judges as a
group are apt to do differently from state
legislators). Only the Justices, the proprietors of
the undue-burden standard, can apply it to a
new category of statute, such as the one Indiana
has enacted. Three circuit judges already have
guessed how that inquiry would come out; they
did not agree. The quality of our work cannot be
improved by having eight more circuit judges try
the same exercise. It is better to send this
dispute on its way to the only institution that
can give an authoritative answer.
Pet. App. 117a-118a.

12
CONCLUSION
The petition should be granted.
Respectfully submitted,
ROBERT JOSEPH MUISE
Counsel of Record
American Freedom Law Center
P.O. Box 131098
Ann Arbor, Michigan 48113
(734) 635-3756
rmuise@americanfreedomlawcenter.org
DAVID YERUSHALMI
American Freedom Law Center
2020 Pennsylvania Avenue NW
Suite 189
Washington, D.C. 20006
(646) 262-0500
Counsel for Amici Curiae
Priests for Life and Rachel’s Vineyard

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Silent No More Testimonies . . . . . . . . . . . . . . . App. 1

App. 1

APPENDIX
SILENT NO MORE TESTIMONIES
Debbie,
Indiana, United States
I was 8 weeks pregnant. I was having morning
sickness and gaining weight. My boyfriend took me to
Planned Parenthood. They asked me a series of
questions. At the end, they said since I was unmarried,
my mom wouldn’t help me, my boyfriend didn’t want to
marry me, and that I smoked cigarettes and marijuana
and drank alcohol, my only option was an abortion.
They said my baby would most likely be mentally
retarded or deformed due to my partying. They also
said that the baby wasn’t formed yet and was just cells.
When I told them I was scared, they said they could
give me a laminaria.
They said it wouldn’t hurt at all, but it would be more
money. I went out to the car to ask my boyfriend what
to do and he gave me the extra money for the
laminaria. I felt trapped, but I thought that maybe if
I did this, he would stay with me.
That night I started praying and decided to try to
cancel the abortion. I called Planned Parenthood’s
emergency number and talked to a nurse who said that
I would miscarry because of the laminaria, so I had to
go through with it. Years later I found out from
watching an ex-abortion doctor’s video that they lied,

App. 2
and that I could have safely had the laminaria taken
out and kept my baby.
My mom took me the day of the abortion. I couldn’t
quit shaking from the fear. The Planned Parenthood
nurse gave me a valium but I was not put to sleep. I
was awake and alert through the whole thing. I
remember the pain like a knife in my stomach and the
sounds of the machine, and I remember the doctor
yelling at me not to move. The medical assistant came
running in after they took the bottle holding the
contents of my baby out of the room. I asked what
happened and she said that the bottle had broken. She
didn’t know what to do because she couldn’t piece the
baby back together. I remember feeling shocked and I
asked if she knew the sex of my baby! They took me to
the recovery room, and I remember all the girls there
with glazed looks and crying. Immediately afterward
I felt shock that it was over. I felt some relief but also
a deep sadness and emptiness which I numbed out.
Diana,
Pennsylvania, United States
The second abortion was in a clinic in Indianapolis and
I was awake throughout. I can still hear that awful
sucking machine and the doctor’s voice saying, “I’m
trying to get it all.” IT? IT? I felt a deep agony
overcome me. That “IT” was my baby.
I was never more alone or scared in my life. All the
women in the recovery area were very quiet, except
one. The woman was crying loudly, and I will
remember her to my dying day. Many of the women
refused to look at anyone. I was feeling numb and

App. 3
detached by now. I felt like I was watching a horror
show.
My physical symptoms began at once, I couldn’t stop
vomiting or bleeding for a long time. I had infection
after infection. I kept thinking why didn’t someone tell
me what would happen to me. I was not told that I
would be so ill. It was ongoing vomiting and bleeding
for a month. I felt like I was dying.
The months following the abortion were very
traumatic. I had infection after infection in my womb.
It was ongoing and never-ending illness.
Carmen,
Louisiana, United States
I became pregnant at 17 and married my high school
sweetheart. We had our child and then a year or so
later, I became pregnant again. We had a lot of turmoil
in our relationship, and I decided a second child right
then wasn’t right for me. I had an abortion. It was
1978. Abortion was legal.
I went to a place in Baton Rouge. I don’t remember the
name. It was absolutely demonic. I remember lying on
the table and saying to the nurse, “I’m not sure I want
to do this. I’m killing my baby.” She just looked at me,
cold and silent. I remember the doctor’s face. When he
came into the room, he was laughing. There was
definitely an evil spirit there. It hurt so much. I don’t
remember if they gave me any kind of painkiller.
Three months later, my husband died in an accident.
I remarried twice. I never had any other children.
Years later I had cancer and had to have a

App. 4
hysterectomy. The abortion had a ripple effect in my
life.
Georgia,
Louisiana, United States
When I got pregnant at 25, I was recently divorced and
had just started a new job. I didn’t think I could be a
single mom, and there was not a single voice in my life
speaking truth to me. My parents said they would take
me for an abortion. The baby’s father said he would
pay half and there was no discussion about any other
solution. My friends encouraged me. Even the
physician’s assistant at my gynecologist’s office, when
the pregnancy test was positive, just handed me a card
and said that’s where I could have an abortion. There
was no counseling about adoption. No talk about other
options. But the physician’s assistant did give me one
piece of advice – she told me not to go to the abortion
clinic in Baton Rouge because it was “really bad.” My
parents drove me for the initial appointment, and at
the clinic in a run-down business area of Metairie, a
staff person was legally obligated to give me a
pamphlet on the stages of a baby’s development. I felt
like she just wanted me to glance at it so she could
check the box.
I made an appointment for my abortion on a Saturday.
There were picketers in the parking lot. Inside there
was an oppressive, heavy, dark atmosphere. I was
given some medication because I was very anxious.
The doctor and the two women in the room were all
business. Afterward, all of us who had had abortions
were lined up in chairs until we were well enough to
leave. They didn’t tell me what to expect or what to

App. 5
watch out for after the abortion. They told me to come
back a month later for a check-up.
I felt more alone that weekend than I have ever felt,
but on Monday morning I had to put on my game face
and pretend nothing had happened. Although I didn’t
have any physical effects immediately after the
abortion, within a year I had developed alopecia, a
hair-loss disorder. I also was later diagnosed with
interstitial cystitis, a bladder disease, and thyroid
problems. I do believe that abortion caused these
things in my body.
Colleen,
Texas, United States
I scheduled a visit to an abortion clinic with my best
friend the next week. I was sickly nervous, visibly
shaking, and my stomach was very upset. I felt very
relieved when the abortion doctor performing my ultrasound showed me a white speck in my stomach, what
he referred to my fetus, and said, this “could” be a
pregnancy, but it’s too tiny to terminate. “You need to
wait several weeks and come back.” I felt very relieved
that I was told that I could not abort that day. Looking
back, it was very unusual, however.
I went back in several weeks later, again with my best
friend. I was very sick with morning sickness over
those weeks. My boyfriend and I had been getting into
horrible fights. I was emotionally a complete wreck
and again visibly shaking at the abortion clinic.
During that ultra-sound, only several weeks later, the
first doctor told me that I was 16-Weeks pregnant, and
that since I was into my second trimester the abortion

App. 6
would be more costly and also a more difficult
procedure. My exact words were, “I don’t understand,
I was just here several weeks ago and another doctor
told me he wasn’t even sure I was pregnant, that all he
saw was a white ‘do’‘ and to come back.” Then I said,
clearly and with certainty that I was very
uncomfortable with having a more difficult procedure
and that I would just have the baby. He looked
perplexed and brought in a second doctor who then
viewed my ultra-sound and said that I was “12-Weeks”
and that we could proceed.
I remember that I was one of many girls in the clinic
and the expressions on everyone’s faces were nothing
less than a mixture of intense fear and pain. Everyone
was crying. The “feel” in the back room of the clinic
was overbearing — a place I could never return. I was
so scared when it came to be my turn, I almost threw
up, but instead I was shaking. I think I was given a
pain-pill, but I don’t remember. The procedure was a
suction procedure, and it seems to take what felt like
forever. I kept asking “Is it almost over?” I was crying
hysterically and a kind woman was holding my hand
and telling me that it will be “okay.”
I still can’t make it through sharing this experience
without crying.
The procedure itself felt like intense cramping, and I
was in such intense pain immediately following it and
on the way home that I believed that there was
something wrong with me. I was bleeding huge
amounts and on the phone with the clinic for at least a
couple days following. They kept assuring me my pain
level, bleeding was “normal.” I did not go to the doctor,

App. 7
or a hospital because first of all, I didn’t have the
money or insurance to do so and secondly, I did not
want to tell anyone about this experience.
I bled in silence basically for almost a month. My
relationship with my boyfriend hit rock bottom during
that month. I broke up with him a couple of months
later and that seemed devastating to him, because I
believe he was very much in love with me. I was
intensely suffering from the trauma of the abortion,
and I regretted it and recognized it as a mistake,
almost immediately following (or during) the
procedure. Probably before, but I felt that the clinic
“Sold” the abortion to me, telling me it was easy,
relatively painless, and by lying to me about the facts
of how far along I was — probably two times. I believe
I was probably 16-weeks along.
Jeannie,
Texas, United Sates
I was taken back to a room for an ultrasound that I
was not allowed to see. After the ultrasound was done,
I was sent to a clinic room where the abortion was to
take place. The doctor came in after I was put on the
exam table. He told me to lay back, be very still, and it
would all be over soon. I asked him about medicine for
the pain. He said that he was not going to give me pain
meds because I would be too sleepy and not want to
leave. I was afraid. The doctor started giving me
injections in my cervix and then began to pry it open
before it was numb. I told him to stop, but he told me
to shut up or I would scare away his other patients. I
began to cry from the pain. After the abortion the
doctor did not say a word and everyone left the room.

App. 8
I knew at that point that not only what was growing
inside of me had died but also with it a part of who I
was.
I went home that day in a lot of pain and bleeding.
Two weeks later I was in even more pain, running
fever, and passing blood clots. I called the abortion
clinic and told them how I was feeling; they said it was
normal. I went on the internet trying to find answers
to my pain. I came across a pro-life site that had a
picture of a ten-week-old fetus’s feet. I had no idea that
my baby had developed feet. That was when the truth
of what I had done hit me.
A week later I walked into my doctor’s office with a
high fever, dizziness, and horrible pain. My doctor did
an exam and ultrasound that day and found that parts
of my baby were still inside of me and had caused a
massive infection. I had to go in the hospital for IV
antibiotics and a D&C.
I spent the next two years in and out of the hospital. I
lived in constant pain. Because the infection in my
uterus had not been found in time it had gone deeply
into my uterus causing me to live on constant
antibiotics and pain management. I had many
surgeries to clean the lining of my uterus and to cut
nerves to my spinal cord to reduce the pain. Nothing
worked. I had nightmares of the abortion and began
taking sleeping pills. I lost my job being in and out of
the hospital so much. I stopped eating; I stopped
living. My doctor said he did not want to do a
hysterectomy because I was only 26. But in August
2004 I told my doctor that I wanted the hysterectomy.

App. 9
I could not take the pain any longer; I wanted my life
back.
The surgery did not cure me and the doctors finally
determined that I have a bladder condition that causes
pain. I became addicted to pain meds and many times
I took too many pills to escape the emotional and
physical pain of my choice. I just didn’t care anymore.
Cathy,
Texas, United States
The next day at the hospital, I felt like I was part of a
cattle call, walking down long corridors, filling out
forms, sitting in waiting rooms, and trying not to look
at the other girls. Everyone kept their heads and eyes
down. Although I had been told that I wouldn’t feel
much pain (only some pressure), it was extremely
painful, and I will never in my life forget the loud
horrifying sound of the suction machine taking the life
out of my body. I cried desperately in sorrow and pain,
and the nurse held my hand, but said nothing. For
some perverse reason, the doctor told me that it was a
boy . . . as if I had just delivered a baby!
Tammy,
Texas, United States
I was placed on a cold table; I remember being yelled at
because I couldn’t stay still or open my legs. I looked at
the monitor and asked if the image was my baby. The
monitor was turned away from my view. I began to
cry. The nurse looked down at me said, “I don’t know
why you are crying, this was your decision, besides it
was too late, the doctor has already started.” I wanted
to jump up and run as fast as I could, but I was frozen.

App. 10
I was placed in recovery, and all you could hear were
women crying, and I remember thinking if this was the
right thing to do then WHY was everyone crying?
Twenty-four hours later, I was rushed to the
emergency room. I remember telling the doctor what
I had done. While performing the sonogram, he
frantically looked at the nurse and said “prep her.” As
I drove home, the images of my baby being torn apart
limb by limb and a piece of her still inside of my womb
started flashing in my mind. I knew at that moment I
had made the wrong decision! Guilt and self-hatred
penetrated my mind and body. I was diagnosed with
Bi-polar disorder and had a nervous breakdown at
twenty-three. At the age of twenty-eight, a complete
Hysterectomy was ordered; no more children for me. I
was blessed to have two children, so I stuffed my
feelings and accepted what I felt like was my
punishment.
Toni,
Texas, United States
At this time, I was pro-choice in my political views, but
when I found myself up against that steel door that
seemed better suited for a prison than a portal of
liberation, I found myself decidedly pro-life. I did not
think it right to tell others what they should do with
their bodies. But as for myself, I did not want to have
an abortion. But the events of that fateful day raced
away from me. I signed in at the front desk and sat in
silence with my boyfriend.
When the lady behind the window called my name, I
went to the back alone, where a nurse led me down a

App. 11
long hall to the very last room. Once in the room, I
noticed the dingy yellow walls, the tall cabinets that
lined one wall, and a padded chair in the corner. The
nurse gestured me to sit in the chair. But as I began to
sit, immediately I broke into tears. I sprang off the
chair and shouted repeatedly: “I will not do this! I have
to leave! I want to go! I can’t stay here!”
But she stepped in front of me, barring my escape.
Clutching both my arms, the nurse forced me back into
the chair. I begged and pleaded like I knew what was
going to happen next: “Please don’t do this to me!
Please don’t do this to me!”
But she pulled a needle out of her pocket and
penetrated my arm. I vaguely remember feeling
someone lifting me from under both arms and someone
else carrying me lifting both my legs.
I later awoke to the nurse’s stares. Seeing my eyes
open, she yelled for me to wake up and pounded her
fists on my chest to keep me conscious. Groggy and
unfocused, I felt someone lifting me from the chair. I
tried my best to walk, but stumbled back to my waiting
boyfriend. We sat for a moment, and then he carried
me to the car and drove me home.
I was now childless.
Doreen,
New York, United States
I was sitting in Planned Parenthood on the table right
after I felt the warmth, comfort, and love of my baby’s
life trickle from my body and completely leave me. I
felt my baby leave my body just as I had felt it come

App. 12
into to my body. I felt so indescribably alone. The
doctor just ducked out of the room and left me sitting
there. I was clutching myself in deep spiritual and
emotional pain, rocking back and forth with my head
raised to the ceiling chanting to myself, “Oh, God, what
have I done? My Lord, my God what have I just done?”
I felt myself dying inside and instantly knew why. I
knew my choice was categorically wrong, and I was the
loser. At that moment, I was terror stricken, filled
with the deepest regret possible, and experiencing the
reality of abortion. I had just betrayed the love of my
Lord, my spirit, and denied my baby life. I had really
truly just killed my baby. All I wanted and wished for
was to undo what I had just done. To take it all back
and have a do over. Impossible! This was my choice.
And, now I have to live with it. I was so terrified,
ashamed and angry. I felt there was no hope for me.
No help for me.
The very core of my being was shaking with pure
terror. I was panicked. To have your entire being
shaking at the core is pure terror. A horror that I pray
no other woman has to endure. My spirit withdrew
with my baby’s. I was in shock and shaking with chills
and numb once my baby’s life dispersed from my body.
The horror and terror I was feeling was completely
inconceivable. Suddenly, there became no easy or
quick fix to change the circumstances of my life. They
had changed forever and were undeniably permanent
and undeniably wrong. There was nothing to comfort
me or change this now. I felt I didn’t know about the
consequences. I was infuriated with myself and
couldn’t fathom my ignorance and my denial of what an
abortion actually was — the taking of my baby and

App. 13
God’s precious gift of life. No one warned me of
spiritual consequences, and I was so angry at Planned
Parenthood and the right to abortion. I felt utterly
deceived and lied to by Planned Parenthood for not
informing me of the spiritual consequence of abortion.
But I truly should have known and kept to my faith.
I was bleeding so heavily for days. It was like I was
hemorrhaging. Bits and pieces of my baby’s body were
coming out in my underwear. I had chunks of my
baby’s remains in the toilet paper when I used the
bathroom. Then during one shower my baby’s arm
came out and fell on the concrete floor of the shower.
I became frozen with fear and the grim reality that my
baby was dead. I couldn’t bear picking it up. It was
the tiniest little arm, and I didn’t know what to do. I
couldn’t even fathom picking it up to throw it away, but
I just couldn’t leave it there. This was one of the worst
moments of my life. I felt so weak inside and repulsed
at what I had done. I had taken my baby’s life — a
human life. I just killed my baby. I was in terror. I
stood in the shower for what seemed like hours
contemplating what to do. Not being able to pick up
my baby’s arm, I finally removed the cover to the drain
and used it to push my baby’s arm down the drain. I
was so traumatized by what I had done. I was sickened
by my choice and its harsh reality. I was sickened by
what I was capable of. Most of all I was sickened that
my baby was dead and that it was final. There was no
escaping what I had done.
By doing this, I denied my faith and my God. I really
truly should have known what I was doing. I felt I
didn’t know. I felt so dumb and stupid — just so very

App. 14
stupid. I didn’t know how precious God’s gift of life was
and took it for granted, but I found out how precious
life is and how much we need to protect and respect
life.
Kristen,
Illinois, United States
I went into Planned Parenthood in Effingham, Illinois
for birth control. I had to take a pregnancy test that
day and then again in two weeks. I remember clearly
hearing someone say outside my door, “Give it to her
anyways.” They never said anything to me about it.
They just gave me the depo shot anyways.
About two months later, I found out I was pregnant. I
went to work, and my mom needed to know my last
period date, so she had my sister call and find out.
They wouldn’t give it to her. But I called a little later
that day, and they told me that my last pregnancy test
came back positive.
They ruined my life. If it had not been for their
mistake, I would have been able to keep my baby.
Since then I was not able to conceive a child. I believe
it is because of damage done by the abortion. During
the procedure, I was awake. They put some medicine
sticks in my cervix to open it, then used something that
sounded like a vacuum and told me to hold still. Are
you serious? It was the worst pain I have ever felt in
my life. Not to mention the most traumatic. After the
procedure, I felt humiliated and hurt beyond belief. I
always wanted kids. Not so young, but the abortion
took that away. I have since gone through four cycles
of invitro fertilization, three tubal pregnancies, and

App. 15
now a hysterectomy. I have found forgiveness from my
family, and that is why I am silent no more.
Sandi,
New York, United States
My boyfriend and a mutual friend accompanied me to
the clinic. When we arrived, it was pouring rain.
There was one man standing outside, a protestor, the
enemy in my book. Ms. G said they would yell and
shout at me; I was afraid and nauseous at the sight of
this lone man standing in the rain. As we approached
him, he spoke, “Please,” he said, “Please don’t kill your
baby.” His tone was kind, sad, and desperate. I kept
walking. I heard him say the name Jesus, I think, but
by that time we were in the clinic door and, thankfully,
he was no longer a threat.
The first thing they asked for at the desk was the $320
in cash, which I handed over. I was glad that things
were moving along, and this would soon be over.
The wait was long. There were perhaps 5-7 other girls
in the waiting area with me.
Finally, I was called back to a small office. There a
woman had me fill out some papers, sign my name, and
then she “counseled” me.
She told me my mom could be a big help in times like
this. I remember thinking if I hadn’t told my mom up
to this point, I was certainly not going to tell her after
the fact. How could I? It would upset her so much, and
I couldn’t bear to see my mom sad. I thought these
things, but never spoke aloud. I just nodded my head.
She told me there would be a bill sent to my home in

App. 16
my name. She said the bill was for testing of the
tissue. I assumed they were going to see if the cells
and tissue were healthy (indeed, three months later a
bill showed up. I tossed it in the trash and never
received another).
She calculated how far along I was, and then she led
me out of the room. As we walked down the hall, she
turned to me with a tone of disgust and said, “Why did
you wait so long!?” I was stunned. What did she mean?
Ms. G told me I was 12 weeks along. At 12 weeks it
wasn’t a baby, it was cells, wasn’t it? I was amazed at
her tone and, suddenly, I was ashamed. I said, “I don’t
know,” and we continued walking.
She led me down a sloping corridor into a small room
that was packed with people. I saw three cots on
wheels directly in front of me. Behind that was a small
row of chairs, to the left of the chairs a privacy screen,
and in front of the screen, against the far-left wall, was
a small station with a few nurses. Through this room
I was led into a very tiny room, just big enough to fit a
gynecologic exam type table with stirrups, a few
portable lights, and some type of machine apparatus.
I was instructed to lie on the table with my legs in the
stirrups. I was then strapped into the stirrups. I was
wondering why this was necessary, but the woman left
the room before I had a chance to speak. I do not think
that I would have spoken because I was too scared to
ask questions.
I do not know if this tiny room had a door. If it did,
they did not choose to use it. They left me there for

App. 17
some time, strapped to the table, my legs tied to the
stirrups.
Behind me, through the open door, was the room full of
people I described earlier. At one point, a man who
appeared to be a custodian walked into the little room
I was in. I felt horrified and embarrassed to be seen by
this stranger. My impression was that he was there to
clean or pick up soiled linens. I felt my privacy had
been violated. I also felt shame.
After some time, someone came into the room and set
up an IV. She told me it was for the anesthetic. She
then left the room.
I didn’t know when the anesthesia would take effect.
Looking back, I now know they hadn’t started it, but
they were just getting everything ready to go.
A few minutes later a group of people came into the
room.
A nurse told me to count backwards from one hundred.
I began counting. I got to 96 and began to feel myself
losing consciousness. I heard a woman’s voice say,
“She’s out,” and then a man’s voice say, “Let’s get this
one over with quickly. I want to go to lunch.” I felt a
panic rise in me, and I heard in my mind my own voice
scream “NO!” I did not trust this man. Why was he
treating me this way? I then heard a loud sound, like
a rumbling of an engine or generator.
The next thing I remember was the sensation of hands
under my arms and legs. I heard voices. I knew they
were lifting me, and I was still trying to say “no,” but I

App. 18
was totally helpless. I could not speak or move, and it
scared me.
I opened my eyes, and I was in that crowded room.
There was a woman in a cot next to me. She asked me
if I was okay. She motioned over to another girl on a
cot who was shaking and still unconscious. “You were
doing that a minute ago; it’s what happens before you
wake up.”
“This time,” she continued, “I decided to just do the
light anesthesia, so I was awake. I am sorry I did that.
It was awful, I could hear the machine.” I had the
impression she was a prostitute. We spoke for a few
minutes. She seemed like a nice person, and it felt
good to talk to someone.
The nurses had me sit up. They said when I was ready,
I could move to one of the seats. I forced myself to be
well enough to get to the seat.
I watched the process going on in the room. The order
was cot, seat, change into your street clothes, cookies
and juice at the nurse’s station, and then out. There
was a steady stream of girls in various stages of this
process. I wanted out, so as soon as I could stand, I
asked for my clothes.
The walls behind the privacy screen were splattered
with blood. There were pools of blood on the floor in
which I made sure not to step.
After I dressed, the nurses gave me my cookies and
juice. They handed me some papers, some pills, and a
prescription. I think the pills were to stop the bleeding.
I don’t remember what the script was for. They told me

App. 19
to see my doctor in two weeks. Feeling weak and dizzy,
I left to go home.
My immediate feeling after my abortion was relief. I
didn’t have to worry anymore and life could go back to
normal.
After the time prescribed, I went to my gynecologist. I
told him I had an abortion. He asked me why I didn’t
come to him for help. (At the time I did not know about
patient confidentiality, and I was fearful he would tell
my parents.) He asked me where I had the abortion.
When I told him, he looked as though he was going to
cry. I was shocked by his reaction and confused as to
why Ms. G would recommend a place that horrified my
doctor, a highly respected and well-known gynecologist.
When he examined me, he told me I had significant
scarring to my uterus. He said he was hopeful it would
heal well enough for me to have children one day.
About a month after the abortion, I started having pain
in my groin and a yellowish discharge. I went back to
the doctor and was diagnosed with a vaginal infection.
Thus began a ten-year odyssey of serious, almost
continuous reoccurring infections, swollen lymph nodes
in my groin, and pain in my ovaries and uterus.
Jules,
California, United States
At 19 years old, I went into the abortion clinic to have
the surgical procedure. From the consultation to the
actual procedure, everyone was friendly and very
informative. Lying on that table, I was having

App. 20
conversations about my future with the doctor and
anesthesiologist. I trusted them.
As soon as I left Planned Parenthood, I immediately
had the worst stomach pains of my life. Four days
later, I went to the emergency room because of how
much I was bleeding and clotting. It turns out I had an
infection. They did an ultrasound, and more than 3/4
of the baby was still inside of me. I had a full uterus.
The doctor informed me that if I didn’t go the very next
morning to have another procedure to have it removed,
I could die. Planned Parenthood was supposed to
remove the baby, and instead they killed the baby, left
the dead body inside me, and sent me home.
It’s possible that the infection will affect my ability to
have kids in the future. It’s possible that I’m infertile.
I don’t know yet, all I know is that I am left
traumatized, damaged, and heartbroken by the
experience I went through. And that is why I am no
longer silent.
Jacquie,
Alabama, United States
We walked in and there were women sitting there that
were pregnant and some that were not. I couldn’t quite
figure that out, but it gave me some hope thinking,
perhaps, that this maybe wasn’t going to happen the
way he said it would. As I was working to fill out my
paperwork, I get called back, which was another red
flag to me, because I was the last one to arrive but the
first one to go back. A woman who said she was a
“nurse” wanted to determine how old the pregnancy
was. We determined that it was eleven weeks, which

App. 21
means everything was formed. Even her teeth were
starting to form.
Before the paperwork could get finished, the doctor
comes in and says, “Are we ready?” I said, “No,” and
she said, “Yes.” I said, “But I need to finish my
paperwork.” He said, “Well we’re ready.”
I was taken into the room, and I thought, I have some
hope. You have to examine what you plan to remove,
correct? As I thought the examination was being done,
things became very, very painful and very intense. I
kept asking him to stop. I begged him to stop. Then I
finally rose up and screamed, “Please stop!” At that
point the nurse pushed me down and said, “Hold on
just one more minute.” The abortionist said, “Yes, just
one more part.”
At that point, I would forget that for many, many years
because as my sisters have said, you go into denial and
you forget many things. It wasn’t until someone said
something to me about the different types and forms of
abortion that I finally realized that my daughter had
been dismembered piece by piece. I’ve learned later on
that most abortuaries go back and place the children
back together, piece by piece, to account for everything,
if you’re lucky.
After the procedure, there was no numbing of the
patient. There was nothing to calm me down. Nothing.
The doctor said to me, “If you have excessive bleeding
you can go to the emergency room. If you have pain,
you can take Tylenol, and release the pain.” I walked
out into what was the waiting room at that facility, and
my fiancé was gone, never to be seen again.

App. 22
I walked across the street, thinking there was a
parking deck there, and I thought well maybe he had
actually grown a conscious and maybe he parked the
car there. As I proceeded across the street in Bethesda,
I collapsed in the middle of the road and almost bled to
death by the time the paramedics got me. What
happened then was even worse. I was admitted to the
hospital. I was living a lie. I had a wedding in three
weeks. I couldn’t call my parents. I couldn’t tell
anyone. It wasn’t until, literally, half my life later that
I would be able to tell my parents and then be able to
seek the healing that I needed at Rachel’s Vineyard.
Joyce,
Maryland, United States
I made a decision to have an abortion and go into the
Army. The impact of all of this is that I suffered a
damaged kidney. I found out much later that half of
my kidney was damaged because when I went into the
military, I had this infection and the infection had
gotten into the kidney, but it was the consequence of
the abortion.
I did not do any follow-up from the abortion as I was
told to do because I had to leave. This infection settled
into my body, and into my kidney, and damaged half of
my kidney. That was one of the impacts. The other
impact was just the thought of this abortion where it
felt like a vacuum cleaner just cleaning you out. I
wanted to jump off the table, and they literally held me
down onto the table until this thing was over. That
was something I would never, ever forget.

App. 23
Andrea,
Pennsylvania, United States
My mother’s friend, who is a registered nurse, came
with us to the clinic. The baby’s father came with me
to the first visit. The consultation was just a bunch of
paper work. There was no asking me if this was what
I wanted, or if I had second thoughts. It was just
strictly how I would be paying.
I went back to see the doctor. It took me by surprise
that he was a guy. They gave me an Rh shot, and he
“examined” me. He told me that I was eight weeks
pregnant. (The “cut off” time for abortions in their
office was eight weeks). However, I knew he was lying
to me because I had kept track. I didn’t speak up. He
didn’t use a sonogram or anything to be sure; he felt
inside of me and made up a number. He then made me
go back out in the waiting room. I wanted to read the
information in the office, but no one would allow me.
They kept saying that at the age of fourteen, I was
making the right “choice” and didn’t need to read
anything that would be “upsetting.”
When I was called back, I started to cry my eyes out.
I asked if my mom could come back with me, but they
said that wasn’t allowed. I started losing it. They took
me to the “procedure” room and told me to get
undressed and lie down on the table. I did. They gave
me no pain killers, and I was awake for the whole
thing. To help me, a nurse held my hand. From the
very second the pain began, I held back my screams.
He told me that I couldn’t move or else I would never
be able to have children again. Some screams exited
my mouth from the amount of pain. The nurse put her

App. 24
hand over my mouth and told me to be quiet because I
would scare the other patients. I squeezed the nurse’s
hand so tight that it started turning purple. My body
had a rush of heat go through me, and then I was
freezing. As he was cutting through my cervix and
scrapping my uterine walls, the sounds that I heard
will never leave my memory. This took about fifteen
minutes. After he was finished, I felt so sick like I had
to vomit. I couldn’t believe what I just had done. I
wanted to stop it. God, how could I have listened to
“the man I loved?”
They had me stand up, and I almost blacked out,
catching myself on the stirrups. I looked down, there
was my baby. The remains of my child were lying in a
bucket right there for the entire world to see what I
had done. It was like time stood still. That image was
burned into my mind. I saw that the “clump of cells,”
my baby, was my son. They took me to the “recovery”
room where there they gave me orange juice and stale
cookies. Other women were in there as well lying
down, some crying, and others just curled up in pain.
After thirty minutes or so, they had me go change
myself because of the blood. As I went to do so, blood
just started gushing out of me. I tried to catch it with
my hands, but the blood filled them up in seconds flat.
It was pouring over my hands and down my legs,
soaking my socks and onto the floor. I was frozen and
in shock. A nurse knocked on the wall and asked if I
need assistance. I said very faintly, “Oh my God, help
me, please, help me, God, please help me.” She came
in to help me (there was only a privacy curtain), and
she knocked the curtain off the wall. She let all the
women there see me with my blood and my child’s

App. 25
blood overflowing my hands. She helped clean me up,
and I passed out from the loss of blood. They tried to
stop the hemorrhaging, but it wouldn’t let up. The
nurse wrapped me in a blanket and told my mother to
take me to a hospital. My mother started panicking,
asking why an ambulance couldn’t be called. The
nurse replied, “For business purposes.” We started
leaving, and we were told we were not allowed to leave
through the front doors because of how I looked. We
were shown the back door and left for the hospital
immediately. When I arrived at the hospital, they
informed me that the abortionist that I went to (Earl
McLeod) had killed several women in the past for not
getting them proper medical attention. They stopped
the bleeding, gave me a transfusion, and discharged
me. On the way home, the procedure felt like it was
still going on with every bump or groove in the road
that we went over. Little did I know that that pain was
only the beginning.
Sandra,
Virginia, United States
At the age of 19, I became pregnant, and there was no
talking about me keeping it. He told me that I had to
have an abortion because I loved him and that it wasn’t
good for us to have it right now. He said that we
couldn’t afford it and that if I didn’t go through with
the abortion, he would leave me. I was devastated. So,
in June of 1989, I went to the abortion clinic in the city
and waited inside alone. He stayed out in the car and
wouldn’t come in with me. He said that I had to be a
big girl, and to do this for US. When I walked in, the
clinic felt cold and not very friendly at all. The nurses

App. 26
were all very nonchalant and cold. There didn’t seem
to be any love or concern in their attitudes. Everything
felt like business. I was taken to a room upstairs
where they did the procedures. I was put into a
waiting room where another nurse came in and
explained that this “thing” that was growing inside of
me was nothing more than a “clump of cells” that had
“no life” in it. From what they could tell, I was about 8
weeks along. She gave me a pill to take to help me
relax and to help start dilation. She gave me a
dressing gown and told me that I needed to change and
prepare for the procedure. I was asked if I needed
anything, and I said no. She left.
About 15 minutes later, I was in the room with the
doctor and, I was put onto this table that had stirrups
on it in which to place your feet. They hooked an IV up
to me and gave me something in the IV to help me to
relax again and not feel pain. I remember going in and
out of consciousness, but I remember hearing
something that sounded like a vacuum. I felt a lot of
pressure in my abdomen, and I remember hearing the
doctor say, “It’s too big. I’m going to have to crush it to
get it to suction out.” I had no idea what he was
talking about, but all I remember was the pain that I
suddenly felt. Then it was over. They took me into a
recovery room and told me to lie down because I would
still be very weak from the drugs, and they needed my
bleeding to slow down before I could leave. They gave
me some juice because I felt extremely dizzy. She came
in to check on me and said that my bleeding hadn’t
slowed down enough to what they had liked, but if I
had someone with me, they would send me home, and
I could recover there. So, I walked out of the clinic by

App. 27
myself. When I got into my boyfriend’s car, we drove
home without saying anything. He didn’t even look at
me the whole drive back to the apartment. When we
got there, I went straight to bed, and he came in and
told me that he had to go to work, and that I did the
right thing for US. At that moment, I didn’t feel like I
had done the right thing. I grieved and felt such a loss
for the next several days. I felt like something
tremendous had been taken away from me. The
bleeding that they said was supposed to stop never did.
I ended up back in the hospital for a D and C.
Apparently during my procedure, there were areas in
my uterus that were bleeding from the instruments
that had been used. The doctor said that if I hadn’t
come in, I could have bled to death. He asked me what
I had done, and I told him that I had an abortion. He
looked at me and just shook his head. In that moment
I felt so much shame and guilt from the looks that he
gave me. He gave me a prescription for pain and one to
help fight infection, and he sent me home. There was
no compassion there. After a day or so, the bleeding
stopped and I was left feeling empty.
Tonya,
Florida, United States
I had an abortion in 2001. I was eighteen and heavily
influenced by my mother. She took me to the clinic on
12th and Delaware in Fort Pierce, Florida. We waited
in the clinic together, but she knew I was very hesitant.
We had to wait for a while for the abortionist to come.
I don’t think he even lived in the area. The nurse said
he would be coming through the back door with a sheet
over his head.

App. 28
When he finally arrived, I was given something to calm
me down. After taking something that made me feel a
little “out there,” I realized that my mother was
nowhere in sight. I asked the nurse to get her but was
told she left to get coffee and would be back when
everything was over. She also told me that she was
glad that I wasn’t talking about God and that there
were no “Jesus freaks” here today. I had also been told
earlier that my child was “not a baby yet,” and I was
denied the right to see my ultrasound.
When I was taken to the room to have the procedure, I
remember thinking, this does not look like a place
anyone should be having surgery.
Now as a
Respiratory Therapist, I know there was absolutely no
emergency medical equipment. Just a bed with stir
ups and a suction machine for extracting my baby.
There was one very nice young nurse there that didn’t
say much but held my hand during the death of my
child. I remember thinking that I did not deserve such
comfort. When I sat up, I saw bloody babies in a
Tupperware bowl on the counter. Afterwards, I was
taken back to a little room with a recliner. I was
shaking uncontrollably. My mother was not called
until the shaking stopped, and I looked more
presentable.
I had severe bleeding and a stabbing pain for weeks
after. I notified the clinic of the symptoms, and they
were not interested in hearing about it. They told me
to go to the ER. The problem was, I did not know the
exact procedure done to me and did not know how to
tell the ER what I had done. I was ashamed.

App. 29
Jennifer,
Massachusetts, United States
I had an abortion when I was 27, and my life has never
been the same. I knew it was wrong, even though I
was not religious at the time. I justified it, and my
boyfriend (now husband) encouraged it. I was very sick
with Lyme’s disease at the time and could barely walk
so I told myself that the baby would be sick with all the
antibiotics. The day of the abortion I wanted someone
to stop me. I felt like I was going to my execution. I
couldn’t stop crying and shaking, and I couldn’t look at
my boyfriend. I went to a very “nice” looking doctor’s
office in San Francisco, but once I got into the
procedure room, I felt like they were treating me like a
criminal. I told them the painkillers they had given me
weren’t working, but they proceeded anyway. I shook
uncontrollably and cried the whole time. When I got
home, I lay on the couch and cried the rest of the day.
Jenn,
Oregon, United States
I’ll never forget walking into the Planned Parenthood
abortion clinic in Syracuse, New York. It was a huge,
cold waiting room. My boyfriend had paid the $300.00
fee and immediately left me there by myself. He told
me to call him when it was done. I felt so alone and
scared as I filled out the paperwork that they gave me.
Keep in mind, I was 17 at the time and was not
accompanied by my parents. It’s the same today as
back then . . . no questions asked, no matter the age.
No parental consent need be given. After filling out the
paperwork, I was taken into a room and made to watch
a short video about what my abortion would be like. I

App. 30
can only describe this video as wishful thinking,
because it bared little resemblance to the actual
invasive procedure I was about to have.
I was let into a very cold, small room and told to
undress and put on the paper gown they supplied me
with. After a few minutes the “doctor” came in, sits at
a chair at my feet and just starts. He did not say one
word to me. The nurse that was there grabbed my
arms and started holding me down. All of a sudden, I
felt a hot, searing pain and I saw STARS! I gasped as
the “doctor” shoved a needle into my cervix. He said to
me “stay still! It doesn’t hurt! It’s all in your head! Let
me FINISH!” I remember that the nurse still had me
pinned down, and I just wanted to jump up and run out
the door, but I could not move. The pain was
indescribable, as was the feeling of helplessness I felt.
No one was there to help me. All I remember after that
was pressure and extreme pain. I know I was crying.
The “doctor” just rolled his eyes at me afterward and
said it was finished. I got dressed and was just numb
as I walked out the door. No after procedure
instructions were given. No follow up appointments
made. They got their money and now would have
nothing else to do with their patient.
After getting back home, I just went to my room and
cried myself to sleep. I was cramping very badly, and
it was the worst period I have ever had. I remember
globs of tissue and blood pouring out. After a few days
it subsided, and I went about my life again. A few
weeks later when my cycle did not come around again,
I went to a clinic doctor and he informed me that I was
STILL PREGNANT! I was floored. I could not even

App. 31
comprehend what he was saying to me. This could not
be happening . . . it just couldn’t.
After that, I was unable to get another abortion . . . it
was too late. I was relieved, but also knew I was not
able to care for a child. I still had to finish high school,
and then college. I had the baby . . . well, actually,
BOTH babies. You see, I had been pregnant with
TWINS. I lost one at birth, the other I gave up for
adoption. She was beautiful. They BOTH were. That
was the hardest thing I have ever done, giving her up,
but I loved her so much I had to. I named the babies
Jessica and Sarah. Jessica was adopted.
Connie,
Wisconsin, United States
The clinic was very cold. They did not tell me that this
blob of tissue, as it was referred to, was a baby with a
heartbeat or explain the risks involved; the possibility
of an infection or perhaps never being able to have
another baby. The nurse who assisted the doctor never
smiled. The doctor briefly explained the procedure,
telling me there would be a sucking sound like a
vacuum cleaner. He said there would be no pain. It
was over just like that; my baby was pulled from my
body. A few days later my doctor told me I had an
infection in my uterus as a result of the abortion.
Sandy,
Wisconsin, United States
In April, 1975 I had an abortion done at the university
hospital In Madison Wisconsin. The abortion was done
against my will and heart’s desire. I was 16 years old
at the time, and my parents had been separated a year

App. 32
and going through a divorce. The abortion was done as
my father was afraid if anyone else found out that I
was pregnant, he would lose custody of my brother and
me. We would then have to go to live with my mother.
My mother conceived me before marriage, and I was
her reason she got married. Thus, she counseled me to
get an abortion and not ruin my life. I felt so ashamed
of myself. I felt panic, confusion, and fear. And after
I bargained with God, and the disbelief settled, I got
my courage up and shared the news with my boyfriend.
He wanted to get married, but we both felt we were too
young. We decided we would make a plan, to place the
baby for adoption. We went to Planned Parenthood in
Milwaukee, thinking they were there to help make
plans for being a parent. We thought we could get
more information on adoption. We were so surprised
that the information we were looking for, Planned
Parenthood didn’t share with us but instead
recommended abortion.
I left feeling very unsupported and wanting no part of
what she was suggesting. We begged my dad for the
longest time to reconsider. Finally, the day came that
he was driving me to the hospital. I remember going in
for the procedure and lying on a table in this cold
sterile metal furnished room. I remember the nurse
telling me how they would pass a long needle into my
abdomen to exchange the amniotic fluids with the
saline solution. I remember the doctor inserting the
needle and my leg jumped and hit a tray of
instruments near the bottom of the table I laid on. It
sent all their instruments flying. The doctor cursed me
and told me not to move again or I could cause
problems with my uterus. I told him that I didn’t want

App. 33
to be here or have the abortion done! He told me that
my parents brought me here for this to be done and so
this is what they were going to do.
After it was finished, I remember going back out to
where my boyfriend and parents were waiting. I broke
down and sobbed. More than a medical procedure
happened. I felt like I had died from the inside out.
After the procedure we went back to my hospital room
to wait till the solution caused me to go into labor and
my baby to be aborted. I was instructed that when I
felt pressure developing, I was to bear down with my
abdomen and not sit up but to ring for the nurse to
come. I remember clinging to a little stuffed animal
the whole time I went through the aborting labor, alone
with no one else around.
Peggy,
Tennessee, United States
I was prepped, drugged with valium and then felt a
very long and horribly painful cramp as I heard a
vacuum cleaner sound. I remember sobbing as I dozed
off. Then I was awakened, got dressed, and my
husband drove me home.
I lied about it, rationalized and justified it for twentysix years. But the abortion not only killed my innocent
baby, it damaged me physically, mentally and
spiritually. Because of the physical damage done to my
uterus from the suction curettage abortion, I had to
have a hysterectomy three months later.

App. 34
Kelly,
Georgia, United States
I am speaking to you today because abortion, in so
many ways, changed my life forever. I had two
abortions ten years ago because I was already a
divorced single mom who didn’t want her Christian
parents to know she was sleeping with her boyfriend.
I remember every sight, sound and smell in the clinic.
I felt like a number . . . rushed in and out and treated
with indifference. I suffered for months after the
second abortion until doctors discovered I had an
incomplete abortion and there were still parts of my
child inside of me.
Kim,
Mississippi, United States
I never met the doctor. I was told by Planned
Parenthood to bring loose fitting clothes. After the
procedure, I was cautioned that I could hemorrhage
and was explained the signs of infection.
I was in college. My boyfriend drove me from
Starkville to Memphis; neither of us said very much on
the way there, I just watched the trees as we drove. On
the way back I was sick, frightened, cramping and in
great emotional pain. I couldn’t speak; I just stared out
of the window as tears flooded down my face knowing
that I had killed my child.
After a sedative and being strapped to the exam table
I said, “I can’t do this, let me up.” After that, I was
forcefully held down by two people and given another
sedative this time and an injection in the vein in my
hand. I put my legs together and heard the doctor tell

App. 35
his assistant to do something about that. They held my
legs apart, and I begged and called for my boyfriend.
Today, I know that he never heard my screams. The
doctor started the procedure, and I felt pain and could
hear the suction noise. I felt sick and could feel the hot
tears flowing down my face. I just wanted to die.
Connie,
Illinois, United States
The clinic was very cold and dreary. No one explained
the real truth to me. They did not tell me that this blob
of tissue, as it was referred to, was a baby with a
heartbeat. They did not explain the risks involved —
the possibility of an infection, or perhaps never being
able to have another baby.
The nurse who assisted the doctor showed no emotion.
She simply said it would be over soon. The doctor
briefly explained the procedure, telling me there would
be a sucking sound like a vacuum. He said there would
be no pain. When I put my feet in the stirrups, I
thought this is it — there is no turning back now. Oh,
how I wanted to leave and never return.
The doctor was wrong; there was pain. Pain from the
instrument used and a deep pain in my heart. It was
over just like that; my baby was pulled from my body.
I went home and closed the curtains and lay on the
couch in the dark wondering what had I done! But that
was not the end of it. A few days later my doctor told
me I had an infection and was not able to go to work.

App. 36
Mary,
Florida, United States
I had an abortion because I was in an abusive
relationship. I had been beaten by my boyfriend, and
he threatened my life multiple times. He threatened to
take our child away from me and send the child to
Morocco with his family.
I experienced verbal,
physical, emotional, social and financial abuse in this
relationship. I experienced going through a domestic
violence victim’s program. I had experienced abuse
and abandonment in my family. My brother sexually
abused me, as well as another family member. I was
accustomed to being treated terribly and thought this
was normal.
During the abortion experience, I felt as if the staff at
the Orlando clinic was not concerned about my welfare.
No one asked me if my life was in danger even though
my boyfriend was cursing at me in the clinic., During
the procedure I was extremely cold and uncomfortable.
With the nurse and doctor, it was just business as
usual. The nurse told me everything would be alright.
The doctor didn’t even talk to me or look at me. I was
crying violently during the procedure as I felt my child
being ripped out. I was told to be quiet and given extra
pain medication to sleep.
Terri,
Wisconsin, United States
It was a day in late August 1980. At the clinic, they
asked me why I was choosing abortion. I felt that I
wasn’t “choosing” abortion at all; I felt like I didn’t have
a choice. The room was cold and for a minute I think

App. 37
I convinced myself I was just going in for a pap. They
told me I would have some cramps, I would hear the
suction machine, and then it would all be over. I
remember being scared out of my mind and wanting to
leave, but I couldn’t. I had to go through with this. I
remember the nurse holding my hand as I started to
cry, and I realized that it wasn’t my insides that were
being sucked out of me, but my baby. I wanted it to
stop. Not only did my baby die that day, but deep down
inside, so did I.
In the waiting room afterwards, they gave me juice and
cookies, like I had just given blood or something. I
remember thinking, “I just killed my baby and I get
juice and cookies for a reward.” It made me sick inside.
I couldn’t get out of there fast enough. I just wanted to
get drunk and stoned to kill the pain in my body and
soul. I ended up on a street corner, screaming and
crying out to God to forgive what I had done. But I
knew God couldn’t forgive this one — this was the
unforgivable sin. At least that’s what I thought.
I bled for two months afterwards, ending up in the
hospital with a D&C. Sometimes an abortion is not
complete and parts of the baby can be left inside,
causing hemorrhaging. I know this is exactly what
happened to me. A year later, I was diagnosed with
endometriosis. With the realization that I may never
have another child, I believed this was God’s
punishment for what I had done.

App. 38
Renee,
Illinois, United States
Once inside, I gave the receptionist a fake name. I felt
numb. I filled out paper work, talked to a counselor,
talked to a nurse, and tried not to think about what I
was doing. A nurse escorted me into the abortion room.
She helped me get ready for the procedure and just
asked me vague questions about the weather and if I
was going to school. The abortionist came into the
room and began my abortion. The nurse was leaning
over me and starring into my eyes. After a little while,
she asked the doctor, “Is something wrong?” He said,
“It is trying to get away – I’ve tried three times!”
I was shocked!! What he said hit me like a ton of
bricks. It is trying to get away! I started to pray and
ask God to stop all this from happening – to not let it
work – to let it fail – to put His hand in the way of the
vacuum. I couldn’t believe what I was doing!! Seconds
later, the abortionist said, “It’s done.” He put away his
tools and left the room. From that moment on I have
REGRETTED MY ABORTION! I just wanted to run,
to die . . . I was ANGRY! After the nurse left the room,
I started to cry. A part of me died in that room. I knew
what I did was wrong. The “IT” he was referring to
was MY BABY!
Lilian,
Alabama, United States
I made my appointment and went to my local Planned
Parenthood for my abortion. I was in the waiting room
where other girls were waiting for their appointments.
The mood was solemn and sad. Everyone knew what

App. 39
they were about to do. For whatever reasons, all of us
were there because we felt we were backed into a
corner. Eventually, they took me to a room. After
waiting in the room awhile, I began to have second
thoughts. Being brought up a Christian, I knew this
was very wrong. I feared that if I had the baby, not
only would my boyfriend be tied to me for life, but he
may abuse the baby as well. How could I put a child
through his abusive tirades?
I had to wait a long time in that sterile plain room to
get ready for the abortion. The workers were very
ineffectual and not very nice at all; they almost threw
the paper gown at me. A nurse entered the room to
prepare me for the abortion, and I told her I was
having second thoughts. She said, “OK, I will tell the
doctor.” When the doctor came and I told him I had
second thoughts. he said nothing to me; he just pulled
out a syringe filled with something from his lab coat
pocket and injected me. I lost consciousness for a
while, when I came to, the procedure was already
underway.
I was numb and unable to move, but I kept repeating
over and over again, “I changed my mind, I changed my
mind.”
The doctor had a devilish look of enjoyment on his face
as he ripped my baby apart. As he worked, he said to
me, “This is best for you and I need a new hot tub for
my new home.” I couldn’t believe it when he said such
a thing. My head was spinning, and I went numb from
the shock of what was happening to me. All I could
think about was how I could ever atone for the murder
of my child. I heard the sucking of the machine as he

App. 40
worked. I swear I could hear my baby’s soul crying as
it was torn apart.
I finally woke up completely, and when I said that I
had changed my mind, they told me that I asked for a
sedative which made me hallucinate. It was not a
hallucination, and I never asked for a sedative. Those
awful people forced me to have an abortion against my
will. The minute I expressed any doubts about my
abortion, they took steps to make sure they got my
money from me.
Kathy,
Ohio, United States
When I began to fear the worst, I went back to Planned
Parenthood where the pregnancy test confirmed that I
was indeed pregnant. The Planned Parenthood worker
suggested I schedule an abortion the next day as the
doctor still had an opening. I remember feeling
trapped and panicky as I moved into a crisis mode.
The PP worker assured me that I could talk to a
“counselor” the next day about my concerns. It also
quickly became clear that my relationship itself hung
in the balance if I did not “choose” abortion. A gain, the
standard party line given by pro-choice advocates as to
why women get abortions are not even close. In
underscoring the dynamics of “choice” surrounding
abortion, Frederica Mathewes-Green captured the
truth: “Women don’t want an abortion like they want
an ice cream cone or a Porsche. They want an abortion
like an animal caught in a trap wants to gnaw off its
own leg to escape. Abortion is a tragic attempt to
escape a desperate situation by an act of violence and
self-loss.”

App. 41
By the time I arrived at the clinic the next morning, I
was paralyzed with fear. My “counselor” collected my
$200 cash, asked a few questions, and assured me
everything would be fine. She reiterated that this was
a good choice for me as an unmarried woman only six
or seven weeks pregnant. My “counseling” session
lasted less than five minutes. No one ever said a word
to me that day about the baby, and I quickly found
myself in a room with a doctor I’d never met, who knew
nothing about me (including my complete medical
history, I might add), and who said nothing to me. It
had barely been 24 hours between the time I found out
I was pregnant and the time my first child was
destroyed. I was numb.
However, I also felt a huge surge of relief that no one
would find out I’d ever been pregnant. Yet just one
week later, I was in the hospital for surgery to correct
the complications from my “safe and legal” earlier
abortion. No one ever told me about that risk.
Nine years later, I ended up with a tubal pregnancy
that was rupturing, which obviously not only ended
that baby’s life, but also resulted in the removal of my
fallopian tube and my ovary. No one ever told me
about that risk either.
Mary,
Virginia, United States
My sister took me to a clinic and dropped me off. I was
so scared. I checked in and did as they asked. I filled
out the paperwork and then sat there all alone. I was
called into a treatment room and told to undress and
get on the cold table. In a few minutes, a doctor came

App. 42
in to examine me. He was very rough. It was very
uncomfortable due to the severity of the STD. As he
jammed his hand into my vagina, I tightened up. He
then meanly said to me, “You have a bad attitude. I’m
here to help you.” As he walked to the door, he turned
to me and said, “Do you want my help or not?” So I
said, “Yes. I need your help.” He completed the
examination, and I laid as still as I could without
moving until he was done. He then just walked out the
door and slammed it behind him.
I got up and put my clothes on. I was told to go sit in
the hallway on a wooden bench. They informed me
that I would be able to speak with a counselor before I
made the decision in the event I wanted to change my
mind. As I sat there, I was convinced that this was not
what I wanted to do. I was going to tell the counselor
just as soon as I could that this was NOT what I
wanted to do. In what seemed to be an eternity, I was
called by a nurse into an exam room. They put me on
the table and began to start the procedure. I recall,
that as I lay there, I could hear the nurses talking.
One of them said, “Who is this?” And the other nurse
said, “Mary J-s.” She replied, “There must be two Mary
J-s here.” The other replied, “Oh well, just go ahead
and do it while she’s here.”
Lena,
Florida, United States
I remember feeling horrible immediately. The pain
was in my lower body, and it was very intense. A short
while later, I was escorted to the back door which led to
the parking lot. My mother waited for me there. As I
rode in the passenger seat of my mother’s car out of the

App. 43
driveway, I recall making eye contact with a person
who was holding a sign and walking in front of the
abortion mill. It was too late for me and for my child.
One week later, I found myself in no better condition.
I had been running a serious fever of nearly 105
degrees for almost the entire week. I was living at my
boyfriend’s parents’ home at the time, and his mother
took notice of my condition. Thanks to her persistence,
I finally allowed her to take me to a walk-in clinic. She
was sure there was something really wrong with me.
At the clinic, there was panic, and I was immediately
taken to the hospital.
Eight days after having my abortion, I was admitted to
the hospital and put in the intensive care unit. During
my first two days there, I worsened, despite broad
spectrum I.V. antibiotics. My family was told that I
could die.
My body was shutting down due to major infection from
septic abortion. I had acute pyelonephritis, sepsis,
pneumonia and presumed congestive heart failure.
I was attached to a heart machine, and I had a tube in
my throat so I could breathe.
Because my condition was getting worse and worse, I
had to have emergency surgery in the middle of the
night. My body was so swollen, I was told that I looked
like I was nine months pregnant.
During my
emergency surgery, 300 cc’s of bloody peritoneal fluid
was removed from my body. How I survived this is
truly a miracle.

App. 44
Billie,
California, United States
My husband did not make any objections and in fact set
the appointment up at Planned Parenthood. We went
in the afternoon because it was more efficient for him
to be able to work beforehand.
I will never forget how humiliated I felt and how the
person (I assume she was a nurse) made me feel.
When she was examining me, she said, “You’re not
pregnant!” I just looked at her with disbelief. She was
rough in her behavior and really lacked as a
“professional.” I remember saying that I was pregnant
and she should have someone else check. She did, and
they concurred with me.
I was told to go into the other room and change my
clothes, and they gave me a pill to take. Vaguely, I
remember going into another room and getting onto a
table much like an exam table. The doctor made a
comment about my name and that it reminded him of
a dancer. It was, I thought, in poor taste especially
since I was in the position that I was in. I remember
very little from that point with the exception of what I
thought was a dream.

